           U.S. Department of the Interior
               Office of Inspector General




      U.S. Virgin Islands Workers’
     Compensation Benefits at Risk

Report No. V-IN-VIS-0003-2007   November 2008
cc:   Commissioner Claudette Watson-Anderson, U.S. Virgin Islands Department of
      Finance
      Commissioner Albert Bryan, U.S. Virgin Islands Department of Labor
      Nikolao Pula, Acting Deputy Assistant Secretary for Insular Affairs
 WHY WE CONDUCTED THIS AUDIT
We conducted this audit to determine whether the Government can continue to guarantee
benefits to injured workers using the Workers’ Compensation Program (Program).
Specifically, we wanted to find out if the Government is adequately safeguarding workers’
compensation funds and ensuring that all employers meet filing and payment requirements.


 OVERVIEW OF WORKERS’ COMPENSATION PROGRAM
This Government-run Program provides income and medical benefits to all employees in the
Virgin Islands who are injured on the job. The Division of Workers’ Compensation
Administration (WCA) of the Virgin Islands Department of Labor (Labor) administers the
Program; WCA employees receive and evaluate workers’ compensation claims and authorize
payment of benefits to qualified employees. Over the past 4 years, WCA processed about
23,300 orders, totaling $28 million, for payments to injured workers.

The VI Department of Finance (Finance) Office of the Custodian of the Government
Insurance Fund (GIF) pays the claims for injured workers and for Program administration. To
do so, GIF collects annual premiums from all Virgin Islands employers who have full-time
employees and the reimbursements due to the Fund. Over the past 4 years, GIF reported
collections of over $32 million and issued about 11,300 certificates of Government insurance.
A certificate serves as an employer’s proof of workers’ compensation insurance coverage.

 WHAT WE FOUND
The Program may be unable to meet the future needs of injured Virgin Islands workers,
especially in the event of a major job-related catastrophe at one of the Virgin Islands’ primary
employers, such as the Virgin Islands Water and Power Authority or the Virgin Islands Fire
Department. The Fund experienced losses of approximately $10.6 million from 2004 to 2007
that were caused by improper use and poor Fund management. In addition, shortfalls due to
outdated rates, inaccuracies in individual premium rates, and uncollected premiums, combined
with an antiquated, manual system to collect premiums and process claims contributes to the
overall vulnerability of the Fund (see Appendix 2).

Losses to the Fund
Improper Use. We found the Government has used Fund monies to pay for expenses
unrelated to the Program. For example, approximately $1.6 million in loans were made from
the Fund, which has never been repaid. By definition, money disbursed in the form of loans
could not have served any Program purpose. GIF employees told us the money was lent in
the 1980s, but no one could provide a specific date, identify who loaned the money or who
received it, or knew why the loan was made.




                                                      1
The misuse continues. As recently as 2007, Fund monies were used to purchase airline tickets
and pay the travel expenses of three Finance employees. This travel was not related to the
Program.

Poor Fund Management. We found that poor Fund management also resulted in Fund
losses. We reviewed 97 claimant cases and found that WCA personnel did not regularly
monitor 25 of them, leading to overpayment of $229,000 in benefits. Some workers are
receiving more benefits than they are entitled to and others are not receiving all the benefits
owed to them. For example, WCA paid one claimant $32,000 too little because it did not
ensure the accuracy of the duration of the benefit. It paid another claimant more than $29,000
too much because it did not follow up on information in medical evaluations. In the latter
case, WCA should have changed the claimant’s benefit status from temporary total disability,
which required ongoing payments, to permanent partial disability, which would have required
a one-time payment of about $8,000. For further explanation of these medical benefits, see
Table 1 below.

                       Table 1. Benefits for Loss of Income
    Disability
                                                    Benefits Description
    Categories
Temporary Total        Income benefits paid based on 66 2/3 percent of last salary for a set time.

                       Income benefits paid based on 66 2/3 percent of difference between current and last
Temporary Partial      salary as a result of modified or part-time work schedule.


                       Scheduled income benefit paid based on percentage of body function lost for a
Permanent Partial      specified period.


                       Continuous income benefit paid based on 66 2/3 percent of last salary for as long as
Permanent Total        claimant lives.


We also reviewed 15 instances of claimant involvement in “third party cases” and found 8, all
on St. Thomas, in which reimbursements were not made. Injured workers may pursue action
for damages against a third party responsible for their injury. If the worker receives a
financial settlement from such action, he or she must reimburse the Fund for benefits that
were received from the Program. WCA personnel’s failure to monitor those cases may have
cost the Fund as much as $565,000. In one case, WCA authorized over $128,000 in benefits
to a claimant on St. Thomas beginning in April 2002. Although WCA personnel knew that
the claimant had initiated a third party case, they failed to monitor the results of the settlement
and continued to authorize benefits until June 2006. As of April 2008, WCA personnel still
had not reviewed the case.

In another case, a claimant received a third party settlement of $50,000. She received the
settlement in February 2005, but WCA personnel made no effort to obtain a reimbursement of
benefits paid to her until we notified them of the case in April 2008. The claimant said that
she informed WCA she received a settlement, but personnel told her they would contact her.

                                                              2
The claimant — 3 years later — no longer has the money to repay benefits received but has
agreed to reimburse the Fund at $80 per month.

Although GIF and WCA personnel work diligently, they devote most of their time to
collecting premiums and processing claims, rather than to recovering money owed to the Fund
or monitoring benefits paid. Further, while WCA has assigned an auditor to track third party
cases on St. Croix, it has no such position on St. Thomas. Therefore, St. Thomas WCA
employees are responsible for both processing claims —23,300 over a 4-year period — and
monitoring them.




   To secure the Workers’ Compensation Fund against future losses, we
   recommend that the Governor of the Virgin Islands:

       1. Disallow unrelated payments from the Fund and obtain reimbursement
          for past improper expenditures.

       2. Establish a review (monthly or quarterly) of claimant cases. In addition,
          this review must reconcile third party payments.




Shortfalls in Premium Collections
Outdated Rates. Premiums paid by employers for workers’ compensation insurance do not
correspond to authorized medical benefits. Since 1980, the cost of medical services has
increased by almost 600 percent nationally (see Figure 1). In response to the cost increase,
the Virgin Islands Code (24 VIC § 254) modified Program benefits, as follows:

    On-island medical benefit ceilings increased from $40,000 to $75,000 (benefit ceilings
     are per person per incident).

    Off-island medical benefit ceilings more than doubled from $75,000 to $200,000.

    The number of weeks used to calculate income benefits for bodily losses (i.e., loss of a
     body part or its function) increased from an average of 137 weeks to an average of 187
     weeks.

Premiums have not kept pace, however, even though 24 VIC § 269 requires an annual
revision. Minor adjustments have been made to workers’ compensation premiums paid by
some employers based on a Finance Workers’ Compensation Handbook issued in 1997.
However, the changes were not founded on actuarial data. Many rates remain at 1981 levels,
and even the updated rates are over a decade old.

                                                      3
                             Figure 1. Rising Health Care Costs
 (Information provided on U.S. Health Care by VI Bureau of Economic Research; costs are per person)

In an attempt to rectify the situation, GIF hired an actuarial consulting company in April 2007
to conduct a study on which premium rate changes could be based. However, the project has
been delayed because the manual system used to administer the Program was unable to
readily provide the statistical data necessary to complete the study. (We discuss the system
below.) Without the information this study can provide, the Government cannot ensure that
premiums charged are based on current economic realities.

Inaccuracies in Individual Premium Rates. GIF utilizes an “experience plan” to determine
whether an individual employer’s annual premium should be increased or decreased. This
plan takes into consideration the individual employer’s “experience rating” — its history of
how many claims have been filed and adherence to requirements. Under 24 VIC § 271,
employers are only eligible to receive a discount if they have paid an annual premium of at
least $1,000, on time, for 3 consecutive years. An employer’s rate should be increased if it
files an above-average number of claims. Alternatively, an employer may be eligible to
receive a discount on or reduction in premiums based on the number of claims filed.

We found that the GIF did not increase premium rates when it should have. For instance, the
GIF inappropriately reduced the premiums for employers who paid $1,000 or more in total
over 3 years rather than $1,000 or more in each of 3 years. In fact, we identified a 7 percent
error rate in a sample of 98 individual employer premiums reviewed. The errors resulted in
unrealized revenues of $32,000.

Uncollected Premiums. The viability of the Workers’ Compensation Fund depends on
collecting all premiums and penalties owed, charging rates based on current medical costs and
wages, and adjusting rates for individual employers based on accurate information.



                                                         4
While all Virgin Islands employers are required to file with the GIF and pay workers’
compensation premiums due, some employers file and do not pay the premiums due, while
others do not file at all (non-filers). Appropriately, GIF sent delinquent notices and made
telephone calls to and levied bank accounts of non-paying employers who file, but GIF made
no effort to collect from non-paying Government agencies or employers who failed to file.
By 2006, GIF’s inaction had allowed Government agencies to accumulate a collective
delinquent balance of $2.4 million and jeopardized the Government’s ability to pay benefits to
injured workers.

At the end of fiscal year 2005, the Fund was overdrawn by $437,000. In March 2006, the
Government allocated $3.5 million to cover the overdrawn amount, pay the outstanding
balance of Government agencies, and ensure the Fund contained enough money to pay
outstanding claims. Still, the problem continued. By September 2007, 13 Government
agencies had accumulated additional delinquent balances of about $193,000. We did note that
the Fund director initiated discussions with Government agencies in October 2007 in hopes of
collecting all premiums due to the Fund.

GIF staff made no effort at identifying non-filers. One way to identify non-filers would be to
coordinate with other Government agencies that have similar employer filing requirements —
as we did. We identified almost 3,000 non-filers based on employer records obtained from
the Department of Labor’s Unemployment Insurance Program. A simple phone call and
reconciliation could have netted at least an additional $7.4 million for the Fund over a 4-year
period. Table 2 shows the estimated annual amount lost each year, which we determined
using the annual average cost of employers’ premiums.

                          Table 2. Lost Revenue From Uncollected
                                Premiums from Non-Filers
                   Labor’s            GIF                          Annual          Estimated
                 Insurance        Employer                        Average             Annual
   Year            Reports         Reports Difference           Premiums        Lost Revenue

   2004               3,351           2,356          995            $2,696          $2,682,520
   2005               3,473           2,647          826            $2,312          $1,909,712
   2006               3,565           2,974          591            $3,206          $1,894,746
   2007               3,690           3,312          378            $2,526            $954,828
  Totals             14,079          11,289        2,790                            $7,441,806

GIF made no effort to collect reimbursements, which totaled at least $529,000, for payments
made on behalf of uninsured employers. To illustrate, between 2003 and 2008, the Program
paid about $235,000 in benefits to an individual who worked for an uninsured Government
employer. WCA is required to charge uninsured employers for all payments made on behalf
of employees, plus a 30 percent penalty. GIF is then responsible for ensuring that the
payments are reimbursed and that penalties are collected. Although WCA assessed a penalty
of $70,500 and forwarded the information, GIF never pursued the uninsured employer for any
of the money. In this case and others, GIF failed to act. In some cases, GIF may have been



                                                      5
unable to act because it has erroneously issued certificates of Government insurance, which
certify current insurance coverage, to delinquent employers.




   To ensure the Program collects all money owed to the Workers’
   Compensation Fund, we recommend that the Governor of the Virgin Islands:

       3. Conduct actuarial studies, immediately and on a periodic basis, to
          develop appropriate workers’ compensation premium rates.

       4. Perform an annual review of each employer’s “experience rating” and
          payment history, adjusting rates as needed.

       5. Hold all Virgin Islands employers accountable for filing annual
          employer reports, and paying corresponding premiums and associated
          penalties when they fail to pay their premiums. Consistently apply
          established collection procedures to non-paying Government agencies
          and employers.




Antiquated, Manual System
Complicated Collection and Claims Processing. The Workers’ Compensation Program
manual system used to collect premiums and process claims is antiquated, cumbersome, and
extremely labor intensive — especially in light of the complexity of premium collections and
claims processing. Having to use this system contributes significantly to the inability of GIF
and WCA employees to address many of the problems we discuss in this report, including
processing claims accurately, maintaining sufficient and easily-accessible data to use for
necessary rate adjustments, and focusing on enforcing premium collections. These
inefficiencies resulted in unrealized revenues of almost $9 million.

Eight steps make up the collection process at GIF (see Appendix 3) and take approximately 6
months to complete. As mentioned earlier, we found the process to be so cumbersome that
GIF employees chose to spend most of their time on those employers who either filed or paid
annual premiums. They did not take steps to identify and collect premiums from non-filers.

At WCA, employees spend so much time processing claims that they have little time to
monitor claims for any adjustments that should be made. When an injured worker files a
claim, a lengthy process is initiated to determine claim eligibility (see Appendix 4). Each step
has unique and multiple requirements that depend on a claimant’s needs. For example, WCA
Program benefits may include medical payments, vocational rehabilitation payments, cash
payments for loss of income resulting from disabilities, and payments to eligible dependent
heirs in instances of death.

                                                       6
To make better use of the limited resources available to administer the
Workers’ Compensation Program, we recommend that the Governor of the
Virgin Islands:

6. Upgrade or replace the current manual system used to collect premiums and
   process workers’ compensation claims. An enhanced system will allow the
   calculation and collection of accurate premiums, and aid in the processing
   and monitoring of claims.




                                                 7
                                                                                   Appendix 1

 AUDIT SCOPE AND METHODOLOGY

The objective of our audit was to determine whether the Government is adequately
safeguarding workers’ compensation funds, ensuring that all employers meet filing and
payment requirements, effectively authorizing and processing payments to all eligible
claimants, and investing funds reserved for future claims and expenses. We could not make a
determination regarding the fourth element of our objective, funds investment, because we
could not rely on the balance information provided by the Department of Finance for fiscal
years 2006 and 2007.

We performed our audit work from August 2007 through June 2008. To accomplish our
objective, we interviewed officials and reviewed disability case files, employers’ files,
collection posting documents, transaction reports, injured employee claims, delinquent
listings, and biweekly payrolls for injured workers at the Departments of Finance and Labor
on both St. Thomas and St. Croix. We also consulted with officials from the Unemployment
Insurance Program on St. Thomas and St. Croix.

Our audit was conducted in accordance with the “Government Auditing Standards” issued by
the Comptroller General of the United States. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We tested records and conducted
other auditing procedures as necessary under the circumstances. We believe the evidence
obtained from our tests and procedures provides a reasonable basis for our findings and
conclusions based on our audit objectives.

As part of the audit, we evaluated the internal controls related to the collection of insurance
premiums and the processing of claims. Internal control weaknesses identified as a result of
our audit are discussed in the What We Found section of this report. The recommendations,
if implemented, should improve internal controls.

Prior Audit Coverage

The Office of Inspector General has not conducted any audits of the Workers’ Compensation
Program in the Virgin Islands in the past 10 years. However, we issued report no. 97-I-243 in
December 1996. We reported that the GIF was not effectively enforcing the requirement that
employers, both private and Government, pay workers’ compensation premiums. We also
found that the GIF did not ensure that revenues and expenditures were authorized and
properly recorded.




                                                       8
                                                      Appendix 2


MONETARY IMPACT



           UNREALIZED      QUESTIONED
                                               TOTAL
            REVENUES         COSTS
                   LOSSES TO THE FUND

Subtotal     $794,000        $1,630,000       $2,424,000


           SHORTFALLS IN PREMIUM COLLECTION
Subtotal    $8,196,000          —             $8,196,000

TOTALS      $8,990,000       $1,630,000       $10,620,000




                                  9
                                                                                           Appendix 3

                        GIF 6-month Premium Collection Process


                                                      Send notification of
                                                      February 28th filing
                                                        and March 31st
                                                       paying deadlines
         Bill employers
        for outstanding
           premiums                                                                  Receive
                                                                                employers’ reports
                                         NOTIFY                                  (estimated and
                                                                                      actual)
                          BILL
Issue certificates to                                                 RECEIVE
employers that met
  filing and paying
     requirements
                                                                                    Collect annual
                                                                                      premiums
                                                                  $             $
                    CERTIFICATE
 Verify accuracy of                                                   COLLECT
   reports for job                                                              Record individual
classification, rates,                                                            premiums by
# of employees, and                                                             policy #, check #
    calculations                                                                    and date,
                                                                                employers’ name,
                                                                                and amount paid
                          VERIFY             $
                                                                RECORD



                                        DEPOSIT
                                    Prepare certificate
                                      of deposit and
                                       Statement of
                                       Remittance




                                        10
                                                                                                   Appendix 4

                       Cumbersome Claims Processing at WCA

   Review
   1) Notice of Injury Report
   2) Medical Report
                                             Is the Claim            Forward Claim
   3) Compensation Claim                                      No
                                               Eligible?             to Adjudicator
   4) Government Insurance
   Certificate




                                       Determine
Review
                                       Compensation
1) Death Benefit Form                                                        Review
                                       Category:
2) Death Certificate                                              Income     Claimant’s
                      Death Benefits
3) Evidence of                                                    Benefits   Disability
                                       -Death Benefit
Dependency                                                                   Certificate
                                       -Medical Benefit
4) Funeral Expenses
                                       -Income Benefit
                                                                             Place Claimant
   Prepare                                                                   on Biweekly
   Payment Order                                                             Payroll for
                                           Medical                           Disability Period
                                           Authorization
                                           Issued
                                                                             Prepare
                                                                             Payment Order


Notify Claimant of                    Monitor Medical Report to                       Notify Claimant of
Medical Status and                    Determine Change in                             Medical Status and
                    Permanent                                        Permanent
Compensation       Total Disability
                                      Disability Status:           Partial Disability
                                                                                      Compensation Offer
Under Continuous                      Permanent Partial                               of Scheduled
Income Benefits                       Permanent Total                                 Income Benefits


                                                                                     Prepare
  Place Claimant                                                                     Payment Order
                                           Review
  on Biweekly
                                           Medical Bills
  Payroll


                                           Prepare
  Prepare                                  Payment Order
  Payment Order




                                                  11
                                           Appendix 5

Governor of the Virgin Islands’ Response




                12
13
14
15
16
17
18
                                                                 Appendix 6


                      Status of Audit Recommendations



Recommendation   Status          Action Required


       1         Resolved and    None
                 Implemented
       2         Resolved and    None
                 Implemented
       3         Resolved, Not   We look forward to receiving the results of the
                 Implemented     actuarial study.
       4         Resolved and    None
                 Implemented
       5         Resolved, Not   We request a copy of the completed review of
                 Implemented     the 65 uninsured cases after it is submitted to
                                 the Commissioner of Finance.
       6         Resolved, Not   We request confirmation once the system is
                 Implemented     completed and operational.




                                  19
